                         June 28, 1999

                         WILLIAM J. DOWLING
                         VICE PRESIDENT, ENGINEERING

                         Subject:	 Tray Management System Software Management
                                   (DA-MA-99-002)

                         As part of an ongoing audit of the Tray Management System,
                         the Office of Inspector General (OIG) observed Year 2000
                         (Y2K) compliance testing for the three Tray Management
                         System contractors. During the tests for the Tray
                         Management System, we identified concerns with the
                         tracking of operating software versions for the Tray
                         Management System contractors. This Management
                         Advisory Report details the results of our review of these
                         issues.

Observations             The Tray Management System contractors have not satisfied
                         all contractual requirements. Specifically:

                         •	 only one of the three contractors delivered a software
                            configuration management plan; and

                         •	 the only contractor currently required to provide an object
                            code comparison program did not supply the deliverable
                            by the date specified in the contract.

                         Initial Y2K testing has been completed for two of the three
                         contractors. All three contractors are scheduled for Y2K post
                         implementation verification by August 1, 1999.

Objectives, Scope and The overall objectives of our ongoing audit are to evaluate
Methodology           whether the Tray Management System project is meeting
                      performance and cost goals. As part of this audit, we
                      reviewed Tray Management System Y2K testing.

                         To assess the concerns detailed in this Management
                         Advisory, we interviewed USPS officials and reviewed the
                         contractual statement of work. In addition, we observed Y2K
Tray Management System Software Management 	                                             DA-MA-99-002




                                compliance testing at the Seattle Processing and Distribution
                                Center and at two contractor testing sites.

Background                      The Tray Management System automates the movement
                                and staging of mail between most mail sorting operations in a
                                processing plant. System components include conveying
                                equipment, staging devices and interfaces to operations and
                                controls for moving trays of mail within the United States
                                Postal Service (USPS) Processing and Distribution Centers.

Configuration 	                 The Statement of Work for Phase III, initial Tray Management
Management 	                    System deployment, requires contractors to provide a
                                software configuration management plan one month after
                                contract award. All Phase III contracts were awarded as of
                                January 3, 1997.1 As of March 22, 1999, only one of the
                                three contractors has delivered a software configuration
                                management plan.

                                The statement of work specifies that documented software
                                configuration procedures should help ensure the integrity of
                                software during the project lifecycle. The software
                                configuration management plan details processes and
                                procedures to manage and control software as it is
                                developed, released, tested and updated.

                                During Y2K testing, we observed incidents that highlighted a
                                lack of attention to configuration management. Specifically:

                                •	 Software tested by a contractor was not the same version
                                   that was sent to a Y2K contractor for code scanning;

                                •	 Software tested by a contractor was not the same as the
                                   version operating at deployed sites;

                                •	 Software was changed during the Y2K test by a
                                   contractor without adhering to any standardized change
                                   control procedures; and

                                •	 Accurate documentation was lacking to show the
                                   software versions operating at each Tray Management
                                   System site.

1
    The contract award dates for Phase III ranged from August 26, 1996 to January 3, 1997.



                                                     2
Tray Management System Software Management 	                                                                DA-MA-99-002




                                       As a result of the absence of an effective software
                                       configuration management plan, we believe there is reduced
                                       assurance that the operating software will remain Y2K
                                       compliant.

                                       USPS officials and the Y2K contractor agreed there was
                                       confusion in identifying software versions during Y2K testing.
                                       The problems with identifying software versions included the
                                       contractor who submitted a software configuration
                                       management plan. These incidents showed that
                                       development of a configuration management plan is not
                                       enough to provide effective software management. For the
                                       software configuration management plan to be fully effective,
                                       we believe contractors must adhere to the plan and provide
                                       all software changes to the USPS.

Object Code                            The Statement of Work for Phase III requires the contractors
Comparison                             to provide an object code comparison program 30 days after
                                       satisfactory completion of the first article test.2 The object
                                       code comparison program is designed to compare the
                                       software for each operating Tray Management System site to
                                       the latest approved software release. The object code
                                       comparison program should identify any unique software
                                       versions operating at Tray Management System sites.

                                       Currently, two of the three contractors have operating Phase
                                       III sites that require first article testing. We found that the
                                       status of the deliverable varied among vendors, as
                                       highlighted below:

                                       •	 One contractor successfully completed first article testing
                                          on September 23, 1998. As of March 22, 1999, this
                                          contractor had not supplied the USPS with the required
                                          object code comparison program.

                                       •	 A second contractor turned over operation and
                                          maintenance of its first production site to the USPS
                                          approximately 18 months ago. However, completion of




2
    According to USPS officials, first article testing is considered the acceptance test performed for the first production site.




                                                                3
Tray Management System Software Management 	                                   DA-MA-99-002




                               upgrades to make the site fully operational, including the
                               installation and integration of additional staging capacity,
                               has pushed first article testing to June 1999. Accordingly,
                               the requirement for delivery of the object code
                               comparison program has been delayed.

                           •	 The third contractor is scheduled for first article testing at
                              its initial production site during June 1999. Therefore, the
                              object code comparison program is not yet due from this
                              contractor.

                           Without the object code comparison program, we believe
                           the USPS has no tangible assurance that site software
                           corresponds to the approved current release. As a result,
                           during Y2K testing, the USPS and the Y2K contractor often
                           relied on verbal assurance from the contractors that
                           software versions tested were identical to deployed
                           versions. In one instance, the contractor provided a written
                           handout listing the software version currently operating at a
                           Tray Management System site. However, we found the
                           version number provided to us by the contractor was not the
                           version actually operating at the Processing and Distribution
                           Center.

Issue Affecting            USPS officials were aware of issues concerning software
Software Contract          contractual requirements for the three Tray Management
Deliverables               System contractors. One official stated that staffing
                           resources along with other high priority work has impacted
                           USPS efforts in enforcing delivery of software requirements.

                           Our observations indicate the current staffing level may not
                           provide adequate resources to successfully manage all Tray
                           Management System software issues. These issues include
                           aspects of system installation and integration along with
                           other items such as configuration management and
                           acceptance testing. In addition, we believe the staffing issue
                           could become more significant as additional Tray
                           Management Systems become operational.




                                               4
Tray Management System Software Management 	                                   DA-MA-99-002




Suggestions                The Vice President, Engineering, should:

                           1)	 Direct USPS program officials to work with Tray
                               Management System contractors to ensure timely
                               delivery and adherence to both a software configuration
                               management plan and an object code comparison
                               program.

                           2)	 Instruct the program manager to review the resources
                               dedicated to software issues for the Tray Management
                               System and obtain additional staffing as needed to
                               ensure the interests of the USPS are being met
                               satisfactorily. In the event that hiring additional personnel
                               is not feasible, we would suggest exploring the option of
                               detailing or reassigning sufficiently skilled employees.

                           3)	 Instruct USPS Engineering software officials to develop
                               procedures to track software versions, ensure software
                               deliverables such as the configuration management plan
                               and object code comparison are updated by the
                               contractors, and ensure all software changes are
                               documented and approved by the USPS.

                           4)	 Direct USPS Engineering software officials to verify that
                               deployed software is identical to software tested and
                               certified as Y2K compliant at each facility utilizing a Tray
                               Management System.

Management	                The full text of management comments is in Appendix A.
Comments 	                 Management agreed that the software issues highlighted in
                           this report have been a cause for concern and could become
                           even more serious within the context of Y2K issues.




                                               5
Tray Management System Software Management 	                                 DA-MA-99-002




                           Management has taken the following actions to address
                           concerns with software configuration management as related
                           to the Tray Management System program:

                           •	 Tray Management System software personnel have
                              begun working with the Engineering Software
                              Management group to ensure timely delivery and
                              adherence to a software configuration management plan
                              and an object code comparison program.

                           •	 The Tray Management System manager has been
                              instructed to review the resources dedicated to software
                              issues and determine if additional staffing is required, and
                              how any additional staffing might be best obtained.

                           •	 USPS Engineering software personnel have begun to
                              work with the Engineering Software Management group
                              to track software versions and ensure all software
                              changes are documented for the Tray Management
                              System program.

                           •	 Upon completion of the Software Configuration
                              Management plans, Tray Management System software
                              personnel will be tasked with verifying that deployed
                              software is identical to software tested and certified as
                              Y2K compliant at each facility utilizing a Tray
                              Management System.

Evaluation of              We believe management’s comments are responsive to the
Management                 software issues raised in the report. The actions being taken
Comments                   by management should strengthen overall software
                           management for the Tray Management System Program.

                           We appreciate the cooperation and courtesies provided by
                           your staff during this review. If you have any questions,
                           please contact                 , Developmental Audits at
                                          , or me at (703) 248-2300


                             //Signed//
                           Colleen McAntee
                           Assistant Inspector General
                            for Performance



                                               6
Tray Management System Software Management       DA-MA-99-002




                           Attachment


Major Contributors
to This Report:




                                             7
Tray Management System Software Management       DA-MA-99-002




                                             8
Tray Management System Software Management                                                                    DA-MA-99-002



                                                                  2


            all existing sites for that vendor. At a minimum, any differences between code sent for scanning
            and installed software shall be reviewed and analyzed to ensure that no Y2K sensitive date
            handling routines were overlooked in the process.

            The USPS has admonished the contractor responsible for changing software during the Y2K test.
            This action violates generally accepted configuration control principles. The contractor's
            management has been contacted regarding the incident, advised of the serious nature, and
            requested to ensure no repeat of the incident will occur. The contractor's management has
            responded that the individual has been advised. Strict adherence to a USPS approved SCM
            plan will aid in avoiding future incidents of this nature.

            Documentation showing the software versions at operating sites was provided during the Y2K
            testing of TMS. The accuracy of the documentation is being reviewed, with contractor
            assistance, to ensure it reflects the true status of the operating system software at each TMS site.

            Object Code Comparison Program

            The TMS Phase III Statement of Work requires the delivery of the object code comparison
            program 30 days after the successful completion of the first article test. This deliverable has not
            been submitted to the USPS by any of the three TMS vendors. As noted in the advisory report,
            one TMS vendor has successfully completed the first article test and, therefore, is required to
            provide the deliverable as contractually required. The TMS Office is in process of generating a
            formal request for the signature of the contracting officer to ensure delivery in timely manner.

            In order to provide tangible assurance that software versions at existing operating sites
            correspond to the approved current release for that site, the USPS will be requesting accelerated
            delivery of the object code comparison program from the remaining two vendors.

            Suggestions

            The following actions have been taken, to date, to address the concerns with software
            configuration management on the TMS program.

            1) TMS software personnel have been directed to ensure timely delivery and adherence to a
               software configuration management plan and an object code comparison program. The TMS
               Office will interface and cooperate with the Engineering Software Management group to
               benefit from the skilled expertise in SCM that exists in that group. This cooperation and
               request for assistance in SCM implementation has already been underway for several
               months.

            2) The TMS manager has been instructed to review the resources dedicated to software issues
               and determine if additional staffing is required. However, due to the current budgetary
               climate within the USPS, if resources are required, it may not be feasible to hire additional
               personnel with specific software expertise. The option of reassigning skilled employees from
               other groups within Engineering will be investigated. The workload status and availability of
               sufficiently skilled employees from other groups will determine the feasibility of this
               alternative.

            3) USPS Engineering software personnel have already been tasked with development of
               procedures to track software versions and ensure all software changes are documented and
               approved by the USPS. This effort has been ongoing within the Engineering Software
               Management group. However, until recently, the effort has not yet included the TMS
               program. As noted above, the TMS Manager has been instructed to coordinate with the
               Engineering Software Management (ESM) group to ensure that TMS SCM related issues are
               being addressed in a timely manner with the appropriate expertise. TMS personnel are




                                                              9
Tray Management System Software Management        DA-MA-99-002




                                             10
